NO.
IN THE SUPREME COURT OF THE UNITED STATES
BRENT LANG - PETITIONER,
VS.
ERICA HUSS - RESPONDENT.
On Petitioner for Writ of Certiorari to the
United States Court of Appeals
For the Sixth Circuit

CERTIFICATE OF SERVICE
I, Brent Lang, do declare that pursuant to Supreme Court Rule 29. I have served
the enclosed Motion for Leave to Proceed in Forma Pauperis and Petition for Writ
of Certiorari on the Party’s counsel, by placing them in an envelope, handing it
directly to an approved departmental worker, first class postage prepaid, and
addressed to:
Michigan Attorney General
G. Mennen Williams Building, 7th FL
225 Id. Ottawa
P.0. Box 30212
Lansing, Michigan 48909.
I, Brent Lang, declare this pursuant to 2B U.5.C. § 1746.
Executed an:
Brent Lang
Declarent

